LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 7, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-267:
RE NO. 19-348:

OUR LADY OF GUADALUPE SCHOOL V. AGNES MORRISSEY-BERRU
ST. JAMES SCHOOL V. DARRYL BIEL, AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF KRISTEN BIEL

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Judicial Watch,
Inc., on February 7, 2020, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioners and Respondents:
PETITIONERS:
Eric Christopher Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
202-955-0095
erassbach@becketlaw.org

RESPONDENTS:
Jennifer Anne Lipski
JML Law, A Professional Law
Corporation
5855 Topanga Canyon Boulevard
Suite 300
Woodland Hills, CA 91367
818-610-8800
jennifer@jmllaw.com

This service was effected by depositing three copies of the Brief of Amicus Curiae
Judicial Watch, Inc. in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 7th day of February 2020.

